                                         Office of Inspector General, USDA
                                            Investigation Developments


January 16, 2013

Minnesota Store Owner Captured in Belize After Fleeing SNAP Fraud Conviction Receives Additional
Prison Sentence and Faces $2.4 Million in Restitution (Food and Nutrition Service - FNS)

A store owner from St. Paul, Minnesota fled the country in 2012 rather than surrendering to serve
41 months in prison (and pay $2.4 million in restitution) after a being convicted for Supplemental
Nutrition Assistance Program (SNAP) fraud. OIG’s investigation had determined the storeowner was
trafficking SNAP and WIC 1 benefits and committed fraud in excess of $3 million. He was ordered to
surrender to authorities in June 2012, but failed to appear.

The U.S. Marshals Service and USDA’s OIG worked to locate him. He was detained by local authorities
in Belize in September 2012 after a woman accused him of kidnapping. He was returned to the United
States, held in the custody of the Bureau of Prisons, and charged with failure to appear. On November 29,
2012, in a Federal court in Minnesota, he pled guilty and was sentenced to an additional 12 months in
prison. The judge stipulated that the individual report to a higher-level security prison as a result of his
failure to appear conviction.

Michigan Convenience Store Employee Sentenced and Ordered to Pay $60,000 in Restitution for
Conducting a Criminal Enterprise (FNS)

On December 13, 2012, in Michigan State court, an employee of a Detroit convenience store where
SNAP benefits were trafficked, was sentenced to 48 months’ probation and ordered to pay $60,000 in
restitution. The OIG investigation disclosed that the store employee illegally exchanged SNAP benefits
for ineligible items on a number of occasions. The store’s SNAP redemptions far exceeded those of
comparable stores in the area. The employee faced charges related to conducting a criminal enterprise
and food stamp fraud. He pled guilty to conducting a criminal enterprise. OIG investigated this case
jointly with the Michigan State Police through the Bridge Card Enforcement Team.

Indiana Store Manager Sentenced and Ordered to Pay $1.4 Million in Restitution for Wire Fraud
Involving SNAP (FNS)

On December 17, 2012, in Indiana Federal court, a man responsible for the operation of a restaurant and
store in Gary, IN, that illegally trafficked in SNAP benefits was sentenced to 41 months in prison. He
was also ordered to pay $1.4 million in restitution. OIG agents disclosed that the man and his two sons
illegally exchanged SNAP benefits for cash. On paper, one of the sons appeared to be the owner of the
business, but the father actually ran day-to-day operations. During the course of OIG’s investigation, OIG
seized more than $500,000 in cash and an undetermined amount of jewelry. All three individuals were
charged with multiple counts of wire fraud, SNAP fraud, and accessory before the fact violations.

In April 2012, the father pled guilty to one count of wire fraud, and both sons pled guilty to one count of
food stamp theft. The sons were sentenced to 12 months of probation in September 2012.



1
    Special Supplemental Nutrition Program for Women, Infants and Children.
                                                                                                          2

Michigan Convenience Store Employee Sentenced and Ordered to Pay $613,000 in Restitution for
Conspiracy to Commit SNAP Fraud; Owner Also Sentenced (FNS)

On December 18, 2012, an employee of a small convenience store in Flint, MI, who trafficked in SNAP
benefits was sentenced in Federal court in Michigan to 60 months in prison on a firearms charge. He was
also sentenced to 18 months in prison, to be served concurrently, for conspiracy to commit SNAP fraud,
and was ordered to pay $613,000 in restitution, jointly and severally, with the store’s owner. OIG’s
investigation determined that the storeowner developed a network of individuals who obtained SNAP
electronic benefit transfer (EBT) cards from recipients, and thereafter made phone calls to the store where
manual transactions were conducted. At times, EBT cards from as far away as Idaho were used to traffic
SNAP benefits. Two employees, including the defendant, were arrested at the store in August 2011 for
being felons illegally in possession of firearms. (Charges against the second individual were ultimately
dismissed.) The storeowner was detained on immigration charges.

The defendant subsequently pled guilty to conspiracy to commit SNAP fraud. Additionally, the
storeowner was found guilty on SNAP conspiracy charges. On January 8, 2013, the owner was sentenced
to 51 months of incarceration and was ordered to pay $612,980 in restitution payable to FNS.

Oregon Heroin Trafficker Sentenced and Ordered to Pay $5,000 Restitution on SNAP and Drug Charges;
Cash and Drugs are Seized (FNS)

On December 19, 2012, in Federal court in Oregon, a Portland woman who fraudulently received SNAP
benefits and trafficked in heroin was sentenced to 63 months in prison for SNAP fraud. She was also
sentenced to 63 months for Possession with Intent to Distribute, to be served concurrently, and ordered to
pay approximately $5,000 in restitution from money forfeited in the case. The joint investigation by OIG
and the Portland Police Bureau disclosed that the woman and her husband had been dealing heroin since
March 2011. She fraudulently applied for and received SNAP benefits while she and her spouse were
actively engaged in heroin trafficking. When arrested in November 2011, approximately $84,200 in cash
was seized from the couple, as well as heroin and a firearm. The husband’s sentencing is pending.

For Wire Fraud Involving SNAP, Chicago Fish Market Owner Sentenced and Ordered to Pay $675,000
in Restitution; $100,000 Seized from His Business (FNS)

On November 26, 2012, in Federal court in Illinois, the owner of a Chicago fish market who trafficked in
SNAP benefits was sentenced to 33 months in prison and was ordered to pay $674,886 in restitution.
The man pled guilty to two counts of wire fraud in August 2012. A preliminary order of forfeiture was
granted for the approximately $100,000 seized from the store and its business account during the
investigation.

Pennsylvania Food Store Owner Sentenced and Ordered to Pay $225,000 in Restitution for SNAP Fraud
(FNS)

On November 29, 2012, in Federal court in Pennsylvania, the owner of a Darby, PA, food store who
trafficked in SNAP benefits was sentenced to 21 months in prison and was ordered to pay $225,000 in
restitution. OIG’s investigation revealed that the store owner exchanged SNAP benefits for cash on
multiple occasions. She was charged and pled guilty in May 2012 to one count of SNAP fraud.
